TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     Many Taxpayers Who Obtain Refund
                 Anticipation Loans Could Benefit From Free
                          Tax Preparation Services



                                         August 29, 2008

                              Reference Number: 2008-40-170




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information

 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                    DEPARTMENT OF THE TREASURY
                                                          WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                   August 29, 2008


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Many Taxpayers Who Obtain Refund
                                 Anticipation Loans Could Benefit From Free Tax Preparation Services
                                 (Audit #200840012)

 This report presents the results of our review to determine the impact Refund Anticipation Loans
 (RAL or Loan) have on taxpayers and tax administration. This audit was conducted as part of
 our Fiscal Year 2008 Annual Audit Plan.

 Impact on the Taxpayer
 Millions of taxpayers borrow against all or part of their expected tax refunds to receive their
 money more quickly. This is accomplished through short-term loans that cost taxpayers fees and
 interest payments. Many of these taxpayers are eligible for free tax preparation services offered
 by the Internal Revenue Service (IRS) and its partners.

 Synopsis
 During the 2008 Filing Season,1 almost 10 million taxpayers borrowed against all or part of their
 expected tax refunds using RALs. A RAL is a short-term loan based on a taxpayer’s expected
 income tax refund and is a contract between the taxpayer and a lender. The IRS is not involved
 in this contract, cannot grant or deny the Loan, and cannot answer any questions about it. The
 loans last from 5 to 14 days.




 1
     The period between January and April when most taxpayers file their tax returns.
                   Many Taxpayers Who Obtain Refund Anticipation Loans Could
                          Benefit From Free Tax Preparation Services



We conducted a telephone survey of 350 taxpayers whose IRS Tax Year 2007 tax accounts
contained RAL indicators.2 Respondents stated that they were aware they received Loans and
they did obtain their money more quickly. For 250 respondents who indicated that they had
received RALs,3 213 (85 percent) stated that they obtained their Loans so they could more
quickly receive their tax refunds. The other 100 indicated they did not obtain a RAL despite
what the IRS’ records indicated.
Taxpayers who chose to wait and receive their tax refunds from the IRS waited from 5 days to
8 weeks, depending on how they filed and how they chose to receive their tax refunds (by check
or direct deposit). For the 250 respondents who responded that they received RALs:
    •   131 (52 percent) received their Loans the same day of or within 2 business days of their
        tax return preparation.
    •   213 (85 percent) stated that preparers made it clear they were receiving Loans. In
        addition, 220 (88 percent) stated that the preparers explained the fees. However, only
        85 respondents (34 percent) stated that they were provided with the interest rates for the
        Loans.
    •   167 (67 percent) preparers explained how long it would take for the taxpayers to receive
        their tax refunds if they chose not to obtain the Loans.
    •   213 (85 percent) obtained Loans because they wanted faster access to their tax refunds
        and 185 (74 percent) used the money to pay bills. Another 14 (6 percent) used the money
        to buy or repair a car or for home repairs and expenses. Eight percent stated they put the
        money in savings.
Proponents of RAL reform have expressed concerns that preparers might be taking advantage of
taxpayers by aggressively marketing the Loans. More than one-half of the respondents--
159 (64 percent)--had checking or savings accounts with financial institutions. In fact,
81 preparers suggested that these taxpayers accept their Loan proceeds via a direct deposit to
their accounts--11 stated that they followed the preparers’ suggestions. Assuming that these
taxpayers could afford the tax return preparation and filing fees, they alternatively could have
had the IRS directly deposit their refunds to their bank accounts in as few as 5 days.
Most respondents actually received their Loan proceeds within 5 days. Fifty-two percent of
respondents (131 of 250) stated that they received their Loan proceeds within 2 days.


2
  Throughout the report, we refer to these taxpayers as having applied for RALs because their Tax Year 2007 tax
accounts contained RAL indicators. However, the taxpayers might not have actually received RALs, applied but did
not obtain the loans, or actually received Refund Anticipation Checks. A Refund Anticipation Check is a non-loan
alternative to a RAL.
3
  The survey included 350 participants. However, only 250 respondents stated that they obtained RALs. Therefore,
only those 250 survey participants were asked the 15 questions specific to the Loans.
                                                                                                              2
                   Many Taxpayers Who Obtain Refund Anticipation Loans Could
                          Benefit From Free Tax Preparation Services



Forty-five percent (113 of 250) of the respondents who indicated that they had received RALs
stated that they would have been willing to wait less than a week to receive their tax refunds
from the IRS, and 85 percent (212 of 250) stated they would have been willing to wait up to
9 days to receive their tax refunds.
The IRS is implementing a new computer system as part of its modernization project that is
expected to reduce the amount of time required to process tax returns. By reducing the number
of days required to process tax returns, the IRS will be able to issue tax refunds sooner. This will
shorten the number of days between the time taxpayers receive their RALs and the time it takes
the IRS to issue the tax refunds. Of the 250 respondents who stated that they had received
Loans, 45 (18 percent) had their tax returns processed using the new computer system.
An analysis of taxpayer account data for the respondents showed that 158 (63 percent) received
the Earned Income Tax Credit.4 The Earned Income Tax Credit has been cited by many experts
as the single Federal Government program that does the most to help get working families out of
poverty. However, tax return preparation and fees to obtain RALs ranged from 10 to 39 percent
of the taxpayers’ Earned Income Tax Credit, with the percentage generally higher for
low-income taxpayers.
The majority of survey respondents would have qualified for the IRS’ free tax preparation
assistance. However, 81 percent (284 of 350) stated that they were unaware of these free
services. Taxpayers may visit Taxpayer Assistance Centers,5 Volunteer Income Tax Assistance
sites and Tax Counseling for the Elderly sites, or use the Free-File Program to file their tax
returns for free. During the 2008 Filing Season, more than 9 million taxpayers took advantage of
these services.

Recommendation
We recommended that the Commissioner, Wage and Investment Division, use taxpayer account
data for taxpayers who apply for RALs and Refund Anticipation Checks to better focus the IRS’
marketing and education efforts so that more taxpayers can make use of the available free
services.




4
  See Appendix VI for select demographics of taxpayers who applied for RALs and Refund Anticipation Checks and
claimed the Earned Income Tax Credit on their 2007 tax returns.
5
  Taxpayer Assistance Centers are walk-in sites where taxpayers can receive face-to-face assistance to obtain
answers to both account and tax law questions, as well as receive assistance in preparing their tax returns.
                                                                                                            3
                 Many Taxpayers Who Obtain Refund Anticipation Loans Could
                        Benefit From Free Tax Preparation Services




Response
The IRS agreed with the recommendation. It will develop a plan to target taxpayers who apply
for RALs and Refund Anticipation Checks into its marketing campaign for the 2009 Filing
Season. The plan will include an approach for reaching these taxpayers with key messages,
identifying the most effective approach, and determining the cost of this effort. Management’s
complete response to the draft report is included as Appendix VIII.
Copies of this report are also being sent to the IRS managers affected by the report
recommendation. Please contact me at (202) 622-6510 if you have questions or
Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 622-5916.




                                                                                                 4
                       Many Taxpayers Who Obtain Refund Anticipation Loans Could
                              Benefit From Free Tax Preparation Services




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          Respondents Were Aware They Had Received Loans to Obtain
          Their Money More Quickly ..........................................................................Page 4
          Respondents Were Not Aware of the Free Tax Return Preparation
          Services Offered by the Internal Revenue Service .......................................Page 11
                    Recommendation 1:........................................................Page 12


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 13
          Appendix II – Major Contributors to This Report ........................................Page 15
          Appendix III – Report Distribution List .......................................................Page 16
          Appendix IV – Demographics of Taxpayers With
          Refund Anticipation Loan or Refund Anticipation Check
          Indicators on Their Tax Year 2007 Tax Returns ..........................................Page 17
          Appendix V – Comparison of Taxpayers Who Applied for
          Refund Anticipation Loans and Refund Anticipation Checks to
          All Taxpayers Who Used Paid Preparers......................................................Page 19
          Appendix VI – Demographics of Taxpayers Who Received the
          Earned Income Tax Credit and Applied for Refund Anticipation Loans
          or Refund Anticipation Checks With Their Tax Year 2007 Tax Returns ....Page 21
          Appendix VII – Survey Results ....................................................................Page 23
          Appendix VIII – Management’s Response to the Draft Report ...................Page 33
                Many Taxpayers Who Obtain Refund Anticipation Loans Could
                       Benefit From Free Tax Preparation Services




                               Abbreviations

e-file(d);e-filing      Electronically file(d); electronic filing
IRS                     Internal Revenue Service
RAC                     Refund Anticipation Check
RAL                     Refund Anticipation Loan
                       Many Taxpayers Who Obtain Refund Anticipation Loans Could
                              Benefit From Free Tax Preparation Services




                                               Background

During the 2008 Filing Season,1 almost 10 million taxpayers borrowed against all or part of their
expected tax refunds using Refund Anticipation Loans (RAL or Loan). A RAL is a short-term
loan based on a taxpayer’s expected income tax refund and
is a contract between the taxpayer and a lender. The
Internal Revenue Service (IRS) is not involved in this           Over the last few years, the
                                                                number of Refund Anticipation
contract, cannot grant or deny the Loan, and cannot answer     Loans per year has remained at
any questions about it. The Loans are repaid directly to the      about 10 million annually.
lender from the proceeds of the taxpayers’ tax refund. For
Tax Years 2005 through 2007 tax returns,2 the number of
Loans each year has remained at about 10 million.
Lenders issue RALs but paid preparers facilitate and advertise them to taxpayers. The lender is a
bank and the facilitator is usually the tax preparer or tax return preparation company. The bank
first deducts fees for the tax return preparation, electronic filing (e-filing), finance charges, and
processing. The taxpayer receives the balance of the tax refund by check, direct deposit, debit
card, or as a down payment on a good or service. Once the IRS processes the tax return
generating the tax refund, the IRS transfers the funds directly to the bank to repay the loan. The
loans last from 5 to 14 days. The IRS’ regular processing of tax refunds through various
methods can range from as few as 5 days to up to 8 weeks.
A Refund Anticipation Check (RAC or Check) is a non-loan alternative to a RAL. With a
Check, the bank sets up a temporary account to receive the tax refund. When the tax refund is
deposited into the account, the bank deducts the tax return preparation, e-filing, and bank
processing fees before disbursing the remainder of the funds to the taxpayer. The amount of
time taxpayers have to wait to receive a Check is from 5 days to 2 weeks. Checks are often
obtained when taxpayers are denied or do not want to pay the higher fees (interest) associated
with RALs.
                                                   When a taxpayer applies for a RAL, the IRS requires
     The IRS places a Debt Indicator on            the preparer to input a RAL indicator on the account
       all accounts for taxpayers with             before e-filing the tax return to the IRS. The IRS in
     outstanding liabilities and allocates         turn transmits and provides an electronic
         all or a portion of taxpayers’
      refunds to offset the outstanding            acknowledgment advising the preparer that the tax
                     debts.                        return has been accepted. The acknowledgement might
                                                   include an input Debt Indicator, which the IRS places

1
    The period between January and April when most taxpayers file their tax returns.
2
    Tax Tear 2007 is for tax returns filed through April 17, 2008.
                                                                                                  Page 1
                 Many Taxpayers Who Obtain Refund Anticipation Loans Could
                        Benefit From Free Tax Preparation Services



on taxpayer accounts for taxpayers with outstanding liabilities collectible by the Federal
Government, such as prior tax debt, unpaid child support, or delinquent student loan debt. For
these accounts, the IRS will allocate all or a portion of the taxpayers’ tax refunds to offset the
outstanding debts. Because preparers and lender banks are at risk of not receiving the tax refund
to repay the loan, the Debt Indicator is used to evaluate the eligibility of taxpayers applying for
RALs. The taxpayer must sign a consent form for the Debt Indicator Program to disclose
information to the provider.

Recently passed and proposed RAL legislation
   •   The Oregon State Department of Revenue proposed legislation in March 2007 requiring
       tax preparers who facilitate RALs to be licensed and make certain disclosures to
       taxpayers. Among the provisions were requirements for tax preparers to disclose the
       interest rates that will be charged and prominently display 1) a schedule of the lender’s
       current interest rates and loan fees, 2) a statement that the tax preparer may not require
       the taxpayer to obtain a Loan as a condition of filing the taxpayer’s tax return
       electronically, and 3) that the fee for filing a tax return electronically does not depend on
       whether the taxpayer has obtained a Loan. This legislation was in committee when the
       legislative session ended in June 2007.
   •   The State of New Jersey recently passed legislation that would cap the interest rates
       banks could charge taxpayers for RALs. However, Federal courts ruled that the National
       Federal Banking Act superseded State laws and any changes would have to be addressed
       by the U.S. Congress.
   •   Federal legislation now prohibits offering RALs to active military personnel or their
       spouses and dependents with Annual Percentage Rates greater than 36 percent. The law
       also requires that handling fees be included in the interest rate calculation. Including this
       fee in effect prohibits banks from offering an economically viable RAL that meets the
       military limitations.
In addition, the IRS, in a notice of advanced proposed rulemaking, describes rules that the
Department of the Treasury is considering proposing regarding the disclosure and use of tax
return information by tax return preparers. The rules would apply to the marketing of RALs and
certain other products in connection with the preparation of a tax return and provides that a tax
return preparer may not obtain a taxpayer’s consent to disclose or use tax return information for
the purpose of soliciting taxpayers to purchase such products. The date for responding to the
proposed rulemaking was April 7, 2008.




                                                                                              Page 2
                      Many Taxpayers Who Obtain Refund Anticipation Loans Could
                             Benefit From Free Tax Preparation Services



Treasury Inspector General for Tax Administration auditors conducted a
telephone survey of 350 taxpayers
We conducted a telephone survey of 350 taxpayers whose Tax Year 2007 accounts contained
RAL indicators. The survey was designed to gain an understanding of why taxpayers obtain
Loans and determine the taxpayers’ experiences during the process and the cost of the loans.3
The survey included taxpayers whose IRS records indicated that they applied for a Loan when
having their Tax Year 2007 tax returns prepared. Throughout the report, we refer to these
taxpayers as having applied for Loans because their Tax Year 2007 tax account contained a RAL
indicator. However, the taxpayers might not have actually received a Loan, applied but did not
obtain the loan, or actually received a Check.
This review was performed at the Wage and Investment Division Headquarters in
Atlanta, Georgia, and Electronic Tax Administration function in Washington, D.C. during the
period January through May 2008. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. This audit was limited to 1) analyzing
data from various IRS computer systems to identify selected characteristics of taxpayers who
applied for RALs on their 2007 Tax Year tax returns, 2) contacting taxpayers to participate in a
telephone survey, and 3) reviewing current and proposed laws and regulations that apply to
RALs. Because we selected a non-representative selection of taxpayers who applied for a RAL
for this review, it is not possible to generalize the results of our work and draw conclusions about
all taxpayers. However, we believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




3
    Appendix VII provides 18 questions posed to taxpayers along with their responses.
                                                                                             Page 3
                       Many Taxpayers Who Obtain Refund Anticipation Loans Could
                              Benefit From Free Tax Preparation Services




                                           Results of Review

Respondents Were Aware They Had Received Loans to Obtain Their
Money More Quickly
The results of the survey show that of the 250 respondents who indicated that they had received
RALs, 213 (85 percent) stated that they obtained their Loans so they could more quickly receive
their tax refunds. Indeed, 131 (52 percent) received their loans the same day of or within
2 business days of their tax return preparation.4 Taxpayers who chose to wait and receive their
tax refunds from the IRS waited from 5 days to 8 weeks, depending on the method of filing and
whether they chose to have their tax refunds mailed by check or directly deposited to their bank
accounts.
Figure 1 provides a comparison of the average number of days taxpayers usually have to wait for
the IRS to issue tax refunds to the average number of days survey respondents would have
waited had they chose not to get Loans or Checks.5
                      Figure 1: Comparison of the Average Number of Days
                                    to Issue Tax Refunds 6

                   RAL and RAC Survey Respondents             9


         E-Filed Tax Return - Refund Directly Deposited       10
                                                                                            Number of Days
                     E-Filed Tax Return - Refund Mailed            16


     Paper-Filed Tax Return - Refund Directly Deposited            16


                Paper-Filed Tax Return - Refund Mailed                       25


                                                          0   5         10        15   20     25     30

    Source: Our analysis of IRS tax refund data.


4
  The survey included 350 participants. However, only 250 respondents stated that they obtained RALs. Therefore,
only those 250 survey participants were asked the 15 questions specific to the Loans.
5
  These data represent refunds issued by the IRS for the period January through May 2008.
6
  The refund data for the RALs and RACs are based on the amount of time it took the IRS to issue the refund to the
bank for the 247 survey respondents. As of April 17, 2008, three taxpayers had not received their refunds because
the tax returns were going through various IRS screening and fraud detection systems.
                                                                                                             Page 4
                     Many Taxpayers Who Obtain Refund Anticipation Loans Could
                            Benefit From Free Tax Preparation Services



Not all respondents obtained RALs
Not all taxpayers selected for the survey actually obtained RALs. Seventy-one percent (250) of
the 350 respondents stated that they had actually received Loans. The other 100 (29 percent)
responded that they did not obtain Loans. This might have happened because the taxpayer
applied but did not obtain the Loan, or instead received a Check, which is a non-loan alternative
to a RAL and is often obtained when a taxpayer is denied or does not want to pay the higher fees
associated with the Loan. Indicators on respondents’ IRS accounts showed that respondents who
answered that they did not receive Loans might have received them, while other respondents
who stated they received Loans might not have received them. Figure 2 shows the breakdown of
the responses from the survey participants compared to indicators on these taxpayer accounts.
                         Figure 2: Survey Responses Versus Indicators

                     Respondents                                          IRS Records

                                                                          RAL Indicator       181
                     Stated They Received a RAL                    250
                                                                          RAC Indicator        69
                                                                          RAL Indicator        39
                     Stated They Had Not Received a RAL            100
                                                                          RAC Indicator        61
                    Total                                      350                     350
                    Source: Our analysis of survey responses and Tax Return Database data.7

Because not all those surveyed responded that they obtained RALs, only those who responded
that they had actually obtained RALs were asked all the questions in our survey specific to their
experience. Select demographics for survey respondents compared to all taxpayers who used a
paid preparer to prepare their tax returns are as follows:8
    •    54 percent of survey respondents filed as Head of Household – compared to 23 percent of
         all taxpayers who used paid preparers.
    •    67 percent of survey respondents’ income was less than $25,000 – compared to
         45 percent of all taxpayers who used paid preparers
    •    48 percent of survey respondents were under the age of 35 – compared to 37 percent of
         all taxpayers who used paid preparers.


7
  The Tax Return Database contains tax return source information for all electronically-filed (e-filed) tax returns and
Business Master File Magnetic Tape Employer’s Quarterly Federal Tax Returns (Form 941). It contains e-filed tax
forms and is the legal repository for all e-filed returns for Tax Year 1998 and beyond.
8
  See Appendix V for additional comparisons of ages, filing status, and income levels for taxpayers who applied for
RALs compared to all taxpayers who used preparers to file their Tax Year 2007 income tax returns.
                                                                                                               Page 5
                      Many Taxpayers Who Obtain Refund Anticipation Loans Could
                             Benefit From Free Tax Preparation Services



Respondents stated that preparers generally made it clear that they were receiving Loans,
but they were not as clear on the interest rate being charged
Of the 250 respondents who stated they had received RALs, 213 (85 percent) stated that the
preparers made it clear that they were receiving loans. In addition, 220 respondents (88 percent)
stated that the preparers explained all the fees. However, only 85 respondents (34 percent) stated
that they were provided with the interest rates for the Loans.
Further, 167 (67 percent) preparers explained how long it would take for the taxpayers to receive
their tax refunds if they chose not to obtain the Loans.
Respondents stated that they wanted their tax refunds faster so they could pay bills
The majority of respondents, 213 (85 percent), obtained Loans because they wanted faster access
to their tax refunds, and 185 (74 percent) used the
money to pay bills. Another 14 (6 percent) used the        Over 68 percent of respondents’
money to buy or repair a car or for home repairs and           refunds were over $2,000,
expenses. Eight percent stated they put the money in            20 percent were $5,000
savings.                                                               or more.

Analyses of IRS taxpayer tax account information for
the 250 respondents show that the dollar amount of the tax refunds ranged from less than $1,000
to $5,000 or more. Figure 3 shows that the tax refunds for respondents are comparable to all
taxpayers who received RALs.
        Figure 3: Comparison of Refund Amounts for Survey Respondents to All
                          Taxpayers Who Applied for RALs

                Range of              Survey                            All Taxpayers
               Tax Refunds          Respondents        Percentage        with RALs9          Percentage
             Less than $1,000             36               14%             1,639,100             17%
              $1,000 - $1,999             50               20%             1,569,792             16%
              $2000 - $2,999              43               17%             1,393,306             14%
              $3,000 - $3,999             34               14%             1,720,588             17%
              $4,000 - $4,999             37               15%             1,401,282             14%
              $5,000 or more              50               20%             2,197,992             22%

            Total                        250              100%             9,922,060            100%
           Source: Our analysis of tax refunds posted on the Tax Return Database file.




9
    Of the 9,922,398 taxpayers who applied for Refund Anticipation Loans, 338 did not receive tax refunds.
                                                                                                             Page 6
                       Many Taxpayers Who Obtain Refund Anticipation Loans Could
                              Benefit From Free Tax Preparation Services



Although most respondents received checks for their tax refunds, 66 (26 percent) of the
250 respondents received debit cards from the preparers. A debit card is a plastic card that
provides an alternative payment method to cash when making purchases. It functions similar to
a check as the funds are withdrawn directly from either the bank account or from the remaining
balance on the card. Sixty-three percent (157 of 250) of the respondents stated that they would
prefer to receive a debit card from the IRS instead of getting a Loan.
In April 2008, legislation was proposed10 that would require the Secretary of the Treasury, in
consultation with the National Taxpayer Advocate, to conduct a study on the feasibility of
delivering tax refunds on debit cards, prepaid cards, and other electronic means to assist
individuals who do not have access to financial accounts or institutions.
Proponents of RAL reform have expressed concerns that preparers might be taking advantage of
taxpayers by aggressively marketing RALs. Almost two-thirds of the respondents–
159 (64 percent)–had checking or savings accounts with financial institutions. In fact,
81 preparers suggested that these taxpayers accept their loan proceeds via a direct deposit to their
accounts–11 taxpayers stated that they followed the preparers’ suggestions. Assuming that these
taxpayers could afford the tax return preparation and filing fees, they alternatively could have
had the IRS directly deposit their refunds to their bank accounts in as few as 5 days.
The IRS advertises that taxpayers who choose to electronically-file (e-file) and have their tax
refunds directly deposited into a bank account will generally receive their tax refunds between
8 to 14 days, and in some instances in as few as 5 days.
Most survey respondents actually received their loan proceeds within 5 days
Fifty-two percent of respondents (131 of 250) stated that they received their Loan proceeds
within 2 days, and 13 percent (32) received their Loan proceeds within 5 days. However, it took
more than 11 days for 45 respondents to receive their Loan proceeds. This might have happened
because the taxpayers did not return to the preparers’ offices to pick up their loan check as soon
as it was available or these taxpayers actually received RACs. Because the time to receive a
RAC is in line with the direct deposit of a tax refund, these taxpayers generally would have
received their tax refund in 8 to 14 days but would not have incurred additional loan fees.
A review of IRS accounts for the 250 taxpayers showed that their tax refunds were issued to the
lenders within 14 days. Figure 4 compares the number of days it took respondents to receive
their RALs and RACs to the number of days it took the IRS to issue the tax refunds.




10
     H.R. 5719, Taxpayer Assistance and Simplification Act of 2008, 110th Congress, 2nd Session (2008).
                                                                                                          Page 7
                 Many Taxpayers Who Obtain Refund Anticipation Loans Could
                        Benefit From Free Tax Preparation Services



new computer system, RALs might not have been as attractive to them. The IRS should increase
its marketing of the new computer system to ensure that tax return preparers and taxpayers are
aware that the IRS can issue tax refunds more quickly than it has in the past.

Taxpayers who applied for RALs generally have lower incomes and received the
Earned Income Tax Credit
According to IRS records, approximately 92 (37 percent) of respondents had income less than
$15,000 and 210 (84 percent) had income less than $40,000, which is one of the criteria required
for a taxpayer to be eligible to receive the Earned Income Tax Credit. These percentages are
generally consistent with the percentages for all taxpayers who applied for Loans or Checks
during the 2008 Filing Season.
The Earned Income Tax Credit is a refundable Federal Government income tax credit for
low-income working individuals and families. When the Earned Income Tax Credit exceeds the
amount of taxes owed, it results in a tax refund to those who claim and qualify for the credit. To
qualify, taxpayers must file a tax return, even if they did not earn enough money to be obligated
to file a tax return, and meet certain requirements including Adjusted Gross Income less than
$39,783. The maximum amount of the Adjusted Gross Income might be less, depending on the
filing status used.
Taxpayers who applied for RALs had between 5 to 25 percent of their tax refunds and the
Earned Income Tax Credit offset by fees
When asked the amount of the fees charged to obtain the Loans or Checks, only 211 of the 250
survey respondents could remember or were willing to state the amount of the fees charged,
which included the set-up fee, the tax preparation and e-filing fee, and the interest. Tax return
preparation and fees to obtain the RALs ranged from 5 to 25 percent of taxpayers’ tax refunds.
The average fee for respondents with tax refunds less than $2,000 was $183 compared to $338
for respondents with tax refunds more than $5,000. Figure 5 provides the range of tax refunds
and the average fees taxpayers paid to have their tax returns prepared and receive either a Loan
or Check.




                                                                                            Page 9
                     Many Taxpayers Who Obtain Refund Anticipation Loans Could
                            Benefit From Free Tax Preparation Services



                           Figure 5: Total Fees for Tax Return Preparation
                                    (Including RAL and RAC Fees)
                                                          Average                  Percentage
         Range of Tax                                     Refund      Average      of Refund       Range of
           Refunds             IRS Tax Records12          Amount        Fee         for Fees        Fees

                                            RAL 18         $692         $173          25%          $50 - $300
        Less than $1,000      29 (14%)
                                            RAC 11         $541         $119          22%          $75 - $180
                                            RAL 28         $1,474       $207          14%         $120 - $443
        $1,000 - $1,999       37 (18%)
                                            RAC 9          $1,504       $204          14%          $39 - $362
                                            RAL 23         $2,527       $280          11%         $150 - $420
         $2000 - $2,999       37 (18%)
                                            RAC 14         $2,763       $257           9%         $135 - $500
                                            RAL 20         $3,427       $300           9%         $120 - $637
        $3,000 - $3,999       29 (14%)
                                            RAC 9          $3,555       $255           7%         $200 - $350
                                            RAL 30         $4,516       $310           7%         $150 - $600
        $4,000 - $4,999       37 (18%)
                                            RAC 7          $4,375       $293           7%         $120 - $400
                                            RAL 35         $6,229       $338           5%          $85 - $671
        $5,000 or more        42 (20%)
                                            RAC 7          $6,815       $373           5%         $100 - $640

      Total                      211

     Source: Our analysis of survey results and the Individual Return Transaction File13 and Tax Return Database.

Analyses of taxpayer account data for the respondents showed that 158 (63 percent) received the
Earned Income Tax Credit. Of the almost 10 million taxpayers who applied for Loans during the
2008 Filing Season, 63 percent also received the Earned Income Tax Credit.14
The Earned Income Tax Credit has been cited as the single Federal Government program that
does the most to help get working families out of poverty. For our respondents, the tax return
preparation and Loans fees ranged from 10 to 39 percent of the taxpayers’ Earned Income Tax
Credit, with the percentage generally higher for low-income taxpayers.




12
   The percentages do not total 100 percent due to rounding.
13
   The Individual Return Transaction File is an IRS database containing personal, tax account, and other information
that has been transcribed from tax returns and most related schedules filed by individual taxpayers.
14
   See Appendix VI for select demographics of taxpayers who applied for RALs and RACs and claimed the Earned
Income Tax Credit on their 2007 tax returns.
                                                                                                           Page 10
                   Many Taxpayers Who Obtain Refund Anticipation Loans Could
                          Benefit From Free Tax Preparation Services



Respondents Were Not Aware of the Free Tax Return Preparation
Services Offered by the Internal Revenue Service
The majority of survey respondents would have qualified for IRS’ free tax preparation
assistance. However, 81 percent (284 of 350) stated that they were unaware of these free
services. Taxpayers may file their tax returns using the following free IRS services:
     •   Taxpayer Assistance Centers are walk-in sites where taxpayers can obtain answers to
         both account and tax law questions, as well as receive assistance in preparing their tax
         returns. More than 2 million taxpayers received assistance at the Taxpayer Assistance
         Centers during Fiscal Year 2008 (as of April 17, 2008).
     •   The Free-File Program, developed through a partnership between the IRS and a group of
         private-sector tax software companies, provides Federal tax return preparation and the
         e-filing program for eligible taxpayers. More than 4 million taxpayers filed their Tax
         Year 2007 tax returns using this Program during Fiscal
         Year 2008 (as of April 17, 2008). This represents a
         21 percent increase over the comparable period in Fiscal Year 2007. The IRS attributed
         this improvement to increased marketing that included a strategic integrated campaign
         and more involvement with stakeholders to build the awareness of the Free-File Program.
     •   The Volunteer Program includes the Volunteer Income Tax Assistance and Tax
         Counseling for the Elderly Programs. It provides free tax assistance to persons with low
         to moderate income (generally $40,000 and less), the elderly, persons with disabilities,
         and persons with limited-English proficiency who cannot prepare their own tax returns.
         More than 3 million taxpayers filed their Tax Year 2007 tax returns at Volunteer Program
         sites during Fiscal Year 2008 (as of April 17, 2008). Some Volunteer Income Tax
         Assistance Program sites offered Loans with significantly lower fees and associated
         interest and are intended to be an alternative to the high cost of traditional Loans.
         However, the IRS does not track these sites and does not have a list of those sites that
         offer the Loans and cannot track these tax returns because they are not identified by a
         RAL indicator.15
The IRS Stakeholder Partnerships, Education, and Communication function has primary
oversight of the IRS’ volunteer program. The Stakeholder Partnerships, Education, and
Communication function advised us that they did not have an overall strategy to educate
taxpayers about RALs. This happened because the IRS is not involved in the contract between
the taxpayer and the bank and cannot answer questions about it. However, analyzing and



15
  Accuracy of Volunteer Tax Returns Continues to Improve, but Better Controls Are Needed to Ensure Consistent
Application of Procedures and Processes (Audit Number 200840010, draft report issued July 21, 2008).
                                                                                                      Page 11
                Many Taxpayers Who Obtain Refund Anticipation Loans Could
                       Benefit From Free Tax Preparation Services



targeting the population of taxpayers who choose to obtain RALs and RACs would enhance the
IRS’ efforts to expand its outreach and education initiatives.

Recommendation
Recommendation 1: The Commissioner, Wage and Investment Division, should use
taxpayer account data for taxpayers who apply for RALs and RACs to better focus the IRS’
marketing and education efforts so that more taxpayers can make use of the available free
services.
       Management’s Response: The IRS agreed with this recommendation and will
       develop a plan to target taxpayers who apply for RALs and RACs into its marketing
       campaign for the 2009 Filing Season. The plan will include an approach for reaching
       these taxpayers with key messages, identifying the most effective approach, and
       determining the cost of this effort.




                                                                                      Page 12
                    Many Taxpayers Who Obtain Refund Anticipation Loans Could
                           Benefit From Free Tax Preparation Services



                                                                                                  Appendix I

          Detailed Objective, Scope, and Methodology

Our overall objective was to determine the impact RALs have on taxpayers and tax
administration. To accomplish this objective, we:
I.      Determined whether the IRS tracks and monitors Loans.
II.     Identified the trends associated with RALs through analysis of taxpayer account data on
        the Individual Return Transaction File1 and Tax Return Database.
        A. Using the Individual Return Transaction File and the Tax Return Database, identified
           taxpayers with RAL and RAC indicators on their Tax Year 2007 tax accounts and
           analyzed the data for taxpayer demographics. We selected taxpayer accounts and
           verified the accuracy of the Individual Return Transaction File tax accounts by
           researching the IRS Integrated Data Retrieval System.2
        B. Identified the data fields required to capture tax account information from the
           U.S. Individual Income Tax Returns (Form 1040). We reviewed a sample at the
           beginning of the year and performed run-to-run balancing3 by comparing record
           counts in all logs showing that data were extracted from the IRS files to the location
           of data stored at the Treasury Inspector General for Tax Administration Data Center
           Warehouse. We reviewed fields in each cycle and checked Log Analysis and
           Reporting Systems on the IRS mainframe for reruns.
        C. Validated the data extracted to fill our electronic data processing requests. We
           conducted run-to-run balancing and ensured that the entire file was used with no gaps
           in the access or extraction of the data.




1
  The Individual Return Transaction File is an IRS database containing personal, tax account, and other information
that has been transcribed from tax returns and most related schedules filed by individual taxpayers.
2
  IRS computer system capable of retrieving or updating stored information which works in conjunction with a
taxpayer’s account records.
3
  Run-to-run balancing is an audit control system, consisting of programs, procedures, and files whose primary
function is to account for the number of records passed between applications programs.
                                                                                                          Page 13
                Many Taxpayers Who Obtain Refund Anticipation Loans Could
                       Benefit From Free Tax Preparation Services



III.   Evaluated the taxpayer’s knowledge of RALs by conducting a survey of 350 RAL
       taxpayers during the period January through March 2008. To select the taxpayers to be
       surveyed, we:
       A. Identified taxpayers who had applied for a RAL for Tax Year 2007 and pulled a
          weekly extract from the Individual Return Transaction File and the Tax Return
          Database for the period January 21, 2008, through March 3, 2008. The total
          population of taxpayers who applied for a RAL during this period exceeded
          9.5 million.
       B. Weighted the volume of tax returns by filing status. Calculated weights were used to
          weight the weekly extract.
       C. Matched each weekly extract to the IRS’ tax return data to identify the taxpayers who
          listed a daytime telephone number on their tax return.
       D. Selected a weekly random sample of 500 taxpayers (taxpayers with complete
          addresses and telephone numbers) from the matched file for each extract. Random
          samples were selected proportionally to the weighted volume by filing status
          calculated for each extract.
       E. Mailed cover letters weekly to the 500 RAL taxpayers to inform them that they might
          receive a telephone call from the Treasury Inspector General for Tax Administration
          asking them to participate in the survey.
       F. Called and surveyed selected taxpayers.
       G. Quantified and analyzed the responses.




                                                                                       Page 14
                Many Taxpayers Who Obtain Refund Anticipation Loans Could
                       Benefit From Free Tax Preparation Services



                                                                           Appendix II

                Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Augusta R. Cook, Director
Lena Dietles, Audit Manager
Frank Jones, Audit Manager
Ken Carlson, Senior Auditor
Bob Howes, Senior Auditor
Sharon Shepherd, Senior Auditor
Jerome Antoine, Auditor
Jerry Douglas, Auditor
Andrea Hayes, Auditor
Patricia Jackson, Auditor
Nelva Usher, Auditor
Geraldine Vaughn, Auditor
Joseph Butler, Information Technology Specialist
Arlene Feskanich, Information Technology Specialist
Martha Stewart, Information Technology Specialist




                                                                                   Page 15
                Many Taxpayers Who Obtain Refund Anticipation Loans Could
                       Benefit From Free Tax Preparation Services



                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                     Page 16
                      Many Taxpayers Who Obtain Refund Anticipation Loans Could
                             Benefit From Free Tax Preparation Services



                                                                                               Appendix IV

           Demographics of Taxpayers With Refund
        Anticipation Loan or Refund Anticipation Check
        Indicators on Their Tax Year 2007 Tax Returns                                                    1




                          RALs       Percentage        RACs        Percentage         Total       Percentage
                                       Filing Status Segmentation
    Single               2,733,194       28%          3,690,415        36%          6,423,609         32%
    Head of Household    5,172,168       52%          3,707,030        36%          8,879,198         44%
    Married Filing
    Jointly              1,942,212       20%          2,773,181        27%          4,715,393         23%
    Married Filing
    Separately            69,285          1%           127,614          1%           196,899           1%
    Widow With
    Dependent Child       5,539          < 1%           6,608          < 1%           12,147          < 1%
    Total                9,922,398       100%        10,304,848        100%        20,227,246        100%

                                           Income Segmentation
                2
    No Income             82,148          1%           24,457          < 1%          106,605           1%
    $1 to $14,999        3,524,651       36%          2,736,501        27%          6,261,152         31%
    $15,000 to $24,999   2,785,475       28%          2,245,271        22%          5,030,746         25%
    $25,000 to $34,999   1,636,069       16%          1,657,662        16%          3,293,731         16%
    $35,000 to $39,783   459,632          5%           575,934          6%          1,035,566          5%
    $39,784 to $54,999   811,728          8%          1,230,008        12%          2,041,736         10%
    $55,000 to $74,999   411,200          4%           884,689          9%          1,295,889          6%
    $75,000 to $99,999   158,024          2%           552,604          5%           710,628           4%
    $100,000 and
                          53,471          1%           397,722          4%           451,193           2%
    Above
    Total                9,922,398       100%        10,304,848        100%        20,227,246        100%




1
  The total of the percentages might not equal 100 percent due to rounding.
2
  These data represent taxpayers who either had nontaxable sources of income or no income because of business and
investment losses.
                                                                                                        Page 17
                    Many Taxpayers Who Obtain Refund Anticipation Loans Could
                           Benefit From Free Tax Preparation Services




                         RALs        Percentage             RACs              Percentage     Total      Percentage
                                               Ag e S e g m e n t a t i o n
Under 25 Years         1,880,844          19%             1,873,191              18%       3,754,035       19%
25-34 Years            3,436,295          35%             3,337,857              32%       6,774,152       33%
35-44 Years            2,525,266          25%             2,593,187              25%       5,118,453       25%
45-54 Years            1,489,293          15%             1,658,596              16%       3,147,889       16%
55-64 Years             498,528           5%               667,933               7%        1,166,461       6%
65 Years or Older        92,172           1%               174,084               2%         266,256        1%
Total                  9,922,398         100%            10,304,848             100%       20,227,246     100%
Source: Our analysis of the Tax Return Database data and Individual Return Transaction File.3




3
  The Individual Return Transaction File is an IRS database containing personal, tax account, and other information
that has been transcribed from tax returns and most related schedules filed by individual taxpayers.
                                                                                                           Page 18
                     Many Taxpayers Who Obtain Refund Anticipation Loans Could
                            Benefit From Free Tax Preparation Services



                                                                                               Appendix V

        Comparison of Taxpayers Who Applied for
    Refund Anticipation Loans and Refund Anticipation
    Checks to All Taxpayers Who Used Paid Preparers

                                                                              All Taxpayers
                                               RAL/RAC                             Using
                                               Taxpayers       Percentage     Paid Preparers    Percentage

                                          Filing Status Segmentation
     Single                                     6,423,609          32%          21,321,541         39%
     Head of Household                          8,879,198          44%          12,563,125         23%
     Married Filing Jointly                     4,715,393          23%          20,268,808         37%
     Married Filing Separately                   196,899            1%           747,489            1%
     Widow With Dependent Child                   12,147           < 1%           35,274           < 1%
     Total                                     20,227,246         100%          54,936,237         100%
                                             Income Segmentation
                 1
     No Income                                   106,605            1%           756,243            1%
     $1 to $14,999                              6,261,152          31%          14,324,081         26%
     $15,000 to $24,999                         5,030,746          25%           9,716,300         18%
     $25,000 to $39,783                         4,329,297          21%           9,876,984         18%
     $39,784 to $54,999                         2,041,736          10%           6,350,841         12%
     $55,000 to $74,999                         1,295,889           6%           5,488,347         10%
     $75,000 to $99,999                          710,628            4%           4,067,969          7%
     $100,000 and Over                           451,193            2%           4,355,472          8%
     Total                                     20,227,246         100%          54,936,237         100%




1
  These data represent taxpayers who either had nontaxable sources of income or no income because of business and
investment losses.
                                                                                                         Page 19
                    Many Taxpayers Who Obtain Refund Anticipation Loans Could
                           Benefit From Free Tax Preparation Services



                                                                                All Taxpayers
                                                 RAL/RAC                             Using
                                                 Taxpayers       Percentage     Paid Preparers    Percentage

                                                  Age Segmentation

     Under 25 Years                              3,754,035           19%           8,634,418          16%
     25-34 Years                                 6,774,152           33%          11,669,759          21%
     35-44 Years                                 5,118,453           25%          11,046,375          20%
     45-54 Years                                 3,147,889           16%           9,797,824          18%
     55-64 Years                                 1,166,461           6%            6,652,914          12%
     65 Years or Older                            266,256            1%            7,134,947          13%
     Total                                      20,227,246          100%          54,936,237         100%
    Source: Our analysis of survey results, the Tax Return Database, and the Individual Return Transaction File.2




2
  The Individual Return Transaction File is an IRS database containing personal, tax account, and other information
that has been transcribed from tax returns and most related schedules filed by individual taxpayers.
                                                                                                            Page 20
                            Many Taxpayers Who Obtain Refund Anticipation Loans Could
                                   Benefit From Free Tax Preparation Services



                                                                                                     Appendix VI

             Demographics of Taxpayers Who Received the
               Earned Income Tax Credit and Applied for
            Refund Anticipation Loans or Refund Anticipation
             Checks With Their Tax Year 2007 Tax Returns                                                         1




                                       RALs        Percentage         RACs         Percentage         Total          Percentage
                                                         Filing Status
Single                                888,225          14%           719,521           17%          1,607,746           15%
Head of Household                    4,397,952         71%          2,768,960          66%          7,166,912           69%
Married Filing Jointly                916,737          15%           703,984           17%          1,620,721           16%
Widow With Dependent Child             4,355          < 1%            4,147           < 1%            8,502            < 1%
Total                                6,207,269        100%          4,196,612         100%         10,403,881          100%
                                                                              2
                                                   Income Segmentation
            3
No Income                               2,644         < 1%            9,332           < 1%           11,976            < 1%
$1 to $14,999                         2,966,342        48%          1,988,344          47%          4,954,686           48%
$15,000 to $24,999                    2,009,316        32%          1,254,499          30%          3,263,815           31%
$25,000 to $34,999                    1,083,220        17%           826,720           20%          1,909,940           18%
$35,000 to $40,000                     145,747         2%            117,717           3%            263,464            3%
Total                                6,207,269        100%          4,196,612         100%         10,403,881          100%




        1
          The total of the percentages might not equal 100 percent due to rounding.
        2
          The figures in this section of the Appendix are based on Adjusted Gross Income.
        3
          These data represent taxpayers who either had nontaxable sources of income or no income because of business and
        investment losses.
                                                                                                                Page 21
                      Many Taxpayers Who Obtain Refund Anticipation Loans Could
                             Benefit From Free Tax Preparation Services




                            RALs         Percentage         RACs          Percentage         Total       Percentage
                                                Age Segmentation

 Under 25 Years           1,031,621          17%            620,992           15%          1,652,613         16%

 25-34 Years              2,379,204          38%           1,553,889          37%          3,933,093         38%

 35-44 Years              1,644,869          27%           1,143,639          27%          2,788,508         27%

 45-54 Years               866,691           14%            635,638           15%          1,502,329         14%

 55-64 Years               247,199           4%             203,468           5%            450,667           4%

 65 Years or Older          37,685           1%             38,986            1%            76,671            1%

 Total                    6,207,269         100%           4,196,612         100%         10,403,881        100%

Source: Our analysis of the Tax Return Database data and the Individual Return Transaction File.4




  4
    The Individual Return Transaction File is an IRS database containing personal, tax account, and other information
  that has been transcribed from tax returns and most related schedules filed by individual taxpayers.
                                                                                                            Page 22
                Many Taxpayers Who Obtain Refund Anticipation Loans Could
                       Benefit From Free Tax Preparation Services



5   What was the amount of the refund on your tax return?

              Less than      $1,000 -    $2,000 -     $3,000 -   $4,000 -   $5,000 or
               $1,000         $1,999      $2,999       $3,999     $4,999      More

     RAL         23            37           25           24        30          42
                 9%           15%          10%          10%       12%         17%

    RAC          13            13           18           10         7          8
                 5%            5%           7%           4%        3%         3%

    Total        36            50           43           34        37          50
                14%           20%          17%          14%       15%         20%



6   Did you receive a check from the preparer for your refund?

                 Yes           No

     RAL        124            57
                50%           23%

    RAC          47            22
                19%            9%

    Total       171            79
                68%           32%




                                                                                        Page 25
    Many Taxpayers Who Obtain Refund Anticipation Loans Could
           Benefit From Free Tax Preparation Services



                                                 Appendix VIII

Management’s Response to the Draft Report




                                                         Page 33
Many Taxpayers Who Obtain Refund Anticipation Loans Could
       Benefit From Free Tax Preparation Services




                                                     Page 34
Many Taxpayers Who Obtain Refund Anticipation Loans Could
       Benefit From Free Tax Preparation Services




                                                     Page 35
